     S'ERvrCES



                                    HEALTH && HUMAN
                      DEPARTMENT OF HEALTH    HUMA SERVICES
                                                    SERVICES                                                                      Office of Inspector
                                                                                                                                  Office    Inspector General
   ~~::
(' ;ø DEPARTMENT OF                                                                                                               Washington,
                                                                                                                                  Washington, D.C.
                                                                                                                                              D.C. 20201
                                                                                                                                                   20201





                                                                   DEC
                                                                   DEC -- 88 2008

                                                                              2008

                 TO:                 Joan Ohl
                                     Joan
                                     Commissioner, Administration for Children, Youth and Families
                                     Administrationfor
                                     Administration forChildren
                                                       Childrenanan amilies
                                                                     amilies


                 FROM:           ~~~~
                                       ßV~
                                       ~!/~
                                 ~~~~ E.E.Vengrin
                                           Vengrin
                                     Deputy Inspector General for Audit Services


                 SUBJECT:            Audit of
 of New Mexico's
                                     Audit            Mexico's Title
                                                               Title IV-E
                                                                      IV-E Administrative
                                                                           Administrative and
                                                                                          and Training
                                                                                              Training Costs
                                                                                                       Costs for
                                                                                                              for the
                                                                                                                   the
                                     2-Year Period Ended September 30, 2002 (A-06-06-00105)


                 Attached is an advance copy of of our final
                                                       [mal report on New Mexico's
                                                                          Mexico's Title
                                                                                     Title IV-E
                                                                                            IV-Eadministrative
                                                                                                  administrative andand
                          costs for
                 training costs for the
                                    the 2-year
                                        2-year period
                                               period ended
                                                       ended September
                                                             September30,
                                                                        30,2002.
                                                                            2002. We
                                                                                   We will
                                                                                       wil issue
                                                                                             issue this
                                                                                                    this report
                                                                                                         report to the
                 New Mexico Children, Youth and Families Department
                                                               Deparment (the
                                                                          (the State
                                                                               State agency)
                                                                                     agency) within
                                                                                                within 55 business
                                                                                                           business days.
                                                                                                                     days.

                 Title       of 
 of the Social Security Act,
                           IV-E
                  Title IV-E                                         Act, as as amended,
                                                                                 amended, authorizes
                                                                                                  authorizesFederalFederalfunds
                                                                                                                           fuds for
                                                                                                                                 for States
                                                                                                                                     States to
                                                                                                                                            to provide
                  foster care and adoption assistance for children under an                            an approved
                                                                                                            approved State plan.
                                                                                                                             plan. The
                                                                                                                                    The State
                                                                                                                                         State agency,
                                                                                                                                               agency,
                 which administers the Title IV             IV-E -E program,
                                                                      program, is    is required
                                                                                         required by Federal regulations to allocate certain
                  administrative and training costs to               to the
                                                                         the Title
                                                                               Title IVIV-E -E program in accordance with a cost allocation
                 plan approved by the Department of Health
                 plan  approved by  the  Deparment of                     Health      andServices,
                                                                                 and Human   Human        Services,
                                                                                                      Division of     Division of Cost Allocation
                 (DCA).         The      State     agency's  plan    specified      several
                 (DCA). The State agency's plan specified several allocation methods, including  allocation       methods, includingrandom
                                                                                                                                      random moment
                                                                                                                                                moment
                 timestudies, the number of individuals receiving training, and ratios of Title IV-E to non-Title
                 time    studies,  the  number of          individuals receiving training, and ratios  of

                 IV
                 IV-E -E case
                           case counts.

                 Our objective was to determine whether the Title IV-E administrative and training costs
                                                                                                   costs that the
                 State agency claimed were allowable, supported, and allocated in accordance with Federal
                 requirements.

                 The State agency claimed
                                    claimed Title
                                             Title IV  -E administrative and training costs that were not allowable,
                                                    IV-E                                                     allowable,
                 supported, or allocated in accordance with Federal
                                                                Federal requirements.
                                                                         requirements. For
                                                                                       For the 22 years
                                                                                                  years ended
                                                                                                          ended
                 September 30, 2002, the State agency claimed $1,651,871 ($1,138,499 Federal share) in
                 unallowable costs because it did not claim training costs in accordance with its  its approved
                                                                                                       approved cost
                 allocation plan, claimed administrative and training costs that were not reimbursable
                                                                                             reimbursable under
                                                                                                              under Title
                 IV  - E,and
                 IV-E,    andused
                              usedinaccurate
                                   inaccuratedata
                                              datatotoallocate
                                                       allocatetraining
                                                                trainingcosts.
                                                                         costs. We could not determine what portion of
                 the remaining $33,457,704 ($17,649,202 Federal share) in Title IV-E costs was allowable
                 because the State agency did not useuse the timestudy methodology
                                                                         methodo.1ogy included
                                                                                      included in
                                                                                                in its
                                                                                                    its approved
                                                                                                         approved cost
                 allocation plan to allocate costs, could not produce sufficient documentation
                                                                                  documentation to  to support
                                                                                                        support claimed
                                                                                                                 claimed
Page 2 – Joan Ohl


costs, and did not sufficiently describe training course content in the State plan for us to
determine whether the content was closely related to allowable Title IV-E activities.

The State agency did not always follow Federal regulations or its approved cost allocation plan.
Inadequate internal controls over timestudy and other allocation data and over record retention
also contributed to the State agency’s improper and unsupported claims.

We recommend that the State agency:

    •   refund the $1,138,499 Federal share of unallowable costs;

    •   work with DCA and the Administration for Children and Families (ACF) to determine
        the allowable portion of the $17,649,202 Federal share of potentially unallowable costs
        and refund any unallowable costs;

    •   work with DCA and ACF to revise its cost allocation plan to describe Title IV-E training
        and a method for allocating the costs of part-time and full-time training programs in
        accordance with Federal requirements; and

    •   implement procedures to ensure that it follows the allocation methods in the approved
        cost allocation plan, documents and verifies the allocation methods used, claims only
        reimbursable costs, and maintains records and data used to allocate costs in accordance
        with Federal regulations.

In written comments on our draft report, the State agency did not specifically address our
recommendations. The State agency agreed with our findings on costs that were not claimed in
accordance with the approved cost allocation plan and on training costs that were not
reimbursable at the enhanced rate. The State agency disagreed with, or did not express an
opinion on, the remaining findings. The State agency did not provide any additional information
that would lead us to change our findings or recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through e-mail at Lori.Pilcher@oig.hhs.gov or
Gordon L. Sato, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414 or
through e-mail at Gordon.Sato@oig.hhs.gov. Please refer to report number A-06-06-00105.


Attachment
~\I"VlCI'I."
~tl"VlCl.r.lI


i~l-                   DEPARTMENT OF HEALTII & HUMAN SERVICES                                                                Office
                                                                                                                             Office of Inspector General
                                                                                                                                                 General
(J DEPARMENT OF HEATH & HUMA SERVCES

                                                                                                                             Ofce
                                                                                                                             OfficeofofAudit
                                                                                                                                        Audit'Services
                                                                                                                                               Services
                                                                                                                             1100
                                                                                                                             1100 Commerce, Room Room 632
                                                                                                                                                        632
                                                                                                                             Dallas,  TX 75242
                                                                                                                             Dallas, TX   75242

                                                                  DEC 11112008

                                                                  DEC      2008
                Report Number: A-06-06-00
                Report          A-06-06-001105
                                            05

                Ms. Angela Adams
                         of Protective Services
                Director of            Services
                Children, Youth and
                                 and Families  Department
                                      Familes Deparment
                1120 Paseo De Peralta, Room 254
                      Fe, New Mexico
                Santa Fe,               87501
                                Mexico 87501

                Dear Ms. Adams:

                Enclosed is the U.S. Department of Health and Human
                Enclosed is the U.S. Department of 
                             Human Services
                                                                                         Services (HHS),
                                                                                                   (HHS), Office
                                                                                                            Offce ofInspector
                                                                                                                  of Inspector
                General       (OIG),     final    report     entitled
                General (OIG), final report entitled "Audit of        "Audit of New  Mexico's
                                                                                     Mexico's Title
                                                                                               Title iv -E
                                                                                                      IV-E Administrative
                                                                                                            Administrative and
                                                                                                                            and
                Training Costs Costs for for the
                                               the 2-Year
                                                     2- YearPeriod
                                                                PeriodEnded
                                                                        EndedSeptember
                                                                               September30,   2002." We
                                                                                          30,2002."    We will forward a copy of
                                                                                                           wil forward
                this report to the HHS action official noted on              on the following page for review
                                                                                                         review and
                                                                                                                and any
                                                                                                                    any action
                                                                                                                        action
                deemed necessary.

                The HHSHHS action official will                makefinal
                                                        wil make         final determination
                                                                                 determinationas  as to
                                                                                                      to actions
                                                                                                         actions taken
                                                                                                                  takenon
                                                                                                                        onall
                                                                                                                            allmatters
                                                                                                                               matters reported.
                                                                                                                                        reported.
                We
                We    request
                   request that youthat   you
                                    respond      respond
                                            to this            to this
                                                    official within       official
                                                                    30 days            within
                                                                            from the date of  30 days from the date of this letter.
                                                                                                                               letter. Your
                response should present   present .any 'any comments or additional information  information that
                                                                                                               that you
                                                                                                                    you believe
                                                                                                                        believemay
                                                                                                                                 mayhave
                                                                                                                                       have aa
                bearing on the final    final determination.

                Pursuant
                Pursuant to theto  the principles
                                principles of 
       of the Freedom ofInformation
                                                                        ofInformationAct,
                                                                                      Act,55U.S.C.
                                                                                             U.S.C.§§55,::,
                                                                                                       55.2, as
                                                                                                             as amended
                                                                                                                 amended by
                Public Law 104-231, OIG          DIG reports generally are made available to the public
                                                                                                    public to
                                                                                                           to the
                                                                                                               the extent
                                                                                                                   extent the
                information
                information is      is not
                                        not subject
                                              subject to
                                                      to exemptions in the
                                                                         the Act (45
                                                                                 (45 CFR
                                                                                     CFR part
                                                                                          part 5). Accordingly, this
                                                                                               5). Accordingly,    this report
                will   be   posted     on   the Internet  at http://oig.hhs.gov.
                wil be posted on the Internet at http://oig.hhs.gov.

                If you have
                       have any
                            any questions or comments about this report, please do not hesitate
                                                                                       hesitate to
                                                                                                to call
                                                                                                   call me, or
                contact Sylvie
                        Sylvie Witten,
                               Witten, Audit Manager, at (512) 339-3071
                                                                 339-3071 or through
                                                                             through e-mail at
                Sylvie.Witten@oig.hhs.gov.    Please refer
                Sylvie.Witten($oig.hhs.gov. Please   refer to
                                                           to report number A-06-06-00105 in all
                correspondence.

                                                                            Sincerely,
                                                                            Sincerely:,


                                                                       km~J/~
                                                                            Gordon L.
                                                                                   L. Sato
                                                                            Regional Inspector General
                                                                            Regional
                                                                             for Audit Services
                                                                             for


                Enclosure
Page 2 – Ms. Angela Adams


Direct Reply to HHS Action Official:

Ms. Christine Calpin
Associate Commissioner
Children’s Bureau
DHHS/ACF/ACYF
Portals Building, Eighth Floor
1250 Maryland Avenue, SW.
Washington, DC 20447
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     AUDIT OF NEW MEXICO’S 

 TITLE IV-E ADMINISTRATIVE AND 

    TRAINING COSTS FOR THE 

      2-YEAR PERIOD ENDED 

       SEPTEMBER 30, 2002 





                    Daniel R. Levinson

                     Inspector General 


                      December 2008

                      A-06-06-00105

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act, as amended, authorizes Federal funds for States to provide
foster care and adoption assistance for children under an approved State plan. At the Federal
level, the Administration for Children and Families (ACF) administers the program; in New
Mexico, the Children, Youth and Families Department (the State agency) administers the
program.

States may be reimbursed for certain Title IV-E administrative and training costs. Federal
regulations require that such costs be allocated to the Title IV-E program in accordance with a
cost allocation plan approved by the Department of Health and Human Services, Division of
Cost Allocation (DCA). The State agency’s cost allocation plan specified several allocation
methods, including random moment timestudies, the number of individuals receiving training,
and ratios of Title IV-E to non-Title-IV-E case counts. These ratios applied to both children in
foster care (foster care ratios) and children in adoption (adoption ratios).

For the 2-year period ended September 30, 2002, the State agency claimed $52,632,892 in Title
IV-E State and local administrative and training costs. We examined $35,109,575 of these costs,
which consisted of foster care administrative costs, adoption assistance administrative costs, and
foster care training costs.

OBJECTIVE

Our objective was to determine whether the Title IV-E administrative and training costs that the
State agency claimed were allowable, supported, and allocated in accordance with Federal
requirements.

SUMMARY OF FINDINGS

The State agency claimed Title IV-E administrative and training costs that were not allowable,
supported, or allocated in accordance with Federal requirements. For the 2 years ended
September 30, 2002, the State agency claimed $1,651,871 ($1,138,499 Federal share) in
unallowable costs because it did not claim training costs in accordance with its approved cost
allocation plan, claimed administrative and training costs that were not reimbursable under Title
IV-E, and used inaccurate data to allocate training costs. We could not determine what portion
of the remaining $33,457,704 ($17,649,202 Federal share) in Title IV-E costs was allowable
because the State agency did not use the timestudy methodology included in its approved cost
allocation plan to allocate costs, could not produce sufficient documentation to support claimed
costs, and did not sufficiently describe training course content in the State plan for us to
determine whether the content was closely related to allowable Title IV-E activities.

The State agency did not always follow Federal regulations or its approved cost allocation plan.
Inadequate internal controls over timestudy and other allocation data and over record retention
also contributed to the State agency’s improper and unsupported claims.



                                                i
RECOMMENDATIONS

We recommend that the State agency:

    •   refund the $1,138,499 Federal share of unallowable costs;

    •   work with DCA and ACF to determine the allowable portion of the $17,649,202 Federal
        share of potentially unallowable costs and refund any unallowable costs;

    •   work with DCA and ACF to revise its cost allocation plan to describe Title IV-E training
        and a method for allocating the costs of part-time and full-time training programs in
        accordance with Federal requirements; and

    •   implement procedures to ensure that it follows the allocation methods in the approved
        cost allocation plan, documents and verifies the allocation methods used, claims only
        reimbursable costs, and maintains records and data used to allocate costs in accordance
        with Federal regulations.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not specifically address our
recommendations. The State agency agreed with our findings on costs that were not claimed in
accordance with the approved cost allocation plan and on training costs that were not
reimbursable at the enhanced rate. The State agency disagreed with, or did not express an
opinion on, the remaining findings. The State agency did not provide any additional information
that would lead us to change our findings or recommendations. The State agency’s comments
appear in their entirety as Appendix B.




                                               ii
                                                 TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION                 .............................................................................................................1

        BACKGROUND ........................................................................................................1
            Title IV-E Program .........................................................................................1
            Federal Reimbursement Requirements ...........................................................1
            New Mexico’s Approved Cost Allocation Plan..............................................2

        OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
             Objective .........................................................................................................2
             Scope .............................................................................................................3
             Methodology ...................................................................................................3

FINDINGS AND RECOMMENDATIONS .......................................................................4

        UNALLOWABLE COSTS ........................................................................................5
            Costs Not Claimed in Accordance With Approved Cost Allocation Plan .....5
            Costs Not Reimbursable .................................................................................5
            Inaccurate Data Used To Claim Costs ............................................................7

        POTENTIALLY UNALLOWABLE COSTS ............................................................8
             Invalid Timestudies Used To Allocate Costs..................................................8
             Insufficient or Lack of Documentation To Support Claims ...........................9
             Costs Claimed for Training Courses Not Related to Allowable
              Title IV-E Activities ...................................................................................10

        RECOMMENDATIONS..........................................................................................11

        STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
        GENERAL RESPONSE...........................................................................................11
             Investigation Costs Not Reimbursable..........................................................11
             Inaccurate Timestudy Observations..............................................................12
             Inaccurate Attendance Counts ......................................................................12
             Insufficient or Lack of Documentation To Support Claims .........................13

APPENDIXES

        A – COSTS REVIEWED AND AUDIT DETERMINATIONS MADE
            FOR THE 2-YEAR PERIOD ENDED SEPTEMBER 30, 2002

        B – STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Title IV-E Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care and adoption assistance for children under an approved State plan. At the
Federal level, the Administration for Children and Families (ACF) administers the program; in
New Mexico, the Children, Youth and Families Department (the State agency) administers the
program.

Federal funds are available to States for the following Title IV-E administrative and training
costs:

   •   Administrative costs include staff activities such as case management and supervision of
       children placed in foster care or considered to be Title IV-E candidates, preparation for
       and participation in court hearings, placements of children, recruitment of foster parents,
       and licensing of foster homes and institutions. The Federal funding rate for
       administrative costs allocable to the Title IV-E program is 50 percent.

   •   Training costs include the training of personnel employed or preparing for employment
       by the State or local agency administering the Title IV-E State plan and the training of
       current or prospective foster care or adoptive parents, as well as personnel of childcare
       institutions. Certain State training costs qualify for an enhanced 75-percent Federal
       funding rate.

Pursuant to Federal regulations (45 CFR part 95, subpart E), States must allocate costs to the
Title IV-E program in accordance with a public assistance cost allocation plan approved by the
Department of Health and Human Services, Division of Cost Allocation (DCA), after ACF
reviews and comments on the fairness of the cost allocation methodologies. Cost allocation
plans must conform to the accounting principles and standards in Office of Management and
Budget (OMB) Circular A-87, “Cost Principles for State, Local, and Indian Tribal
Governments.” The circular requires that costs be allocated to programs based on the relative
benefits received and be adequately documented. ACF’s “Child Welfare Policy Manual” states
that training costs must be allocated to benefiting programs and describes allowable
administrative costs.

Federal Reimbursement Requirements

Section 474(a)(3) of the Act authorizes Federal reimbursement to a State with an approved Title
IV-E plan at a 75-percent rate for amounts expended “for the proper and efficient administration
of the State’s plan” if the expenditures are for certain types of training, such as the training of
personnel employed or preparing for employment by the State or local agency administering the
Title IV-E program. In accordance with Federal regulations (45 CFR § 1356.60(b)), States
receive the enhanced 75-percent rate for short-term and long-term training at educational



                                                 1
institutions and for inservice training. The regulations require that all such training be provided
pursuant to Federal regulations (45 CFR §§ 235.63–235.66(a)), which specify the activities and
costs that are eligible for the enhanced rate, among other requirements. Section 474(a)(3)(E) of
the Act and 45 CFR § 1356.60(c) authorize reimbursement to States at a rate of 50 percent for all
other allowable administrative expenditures.

All training activities and costs charged to the Title IV-E program must be included in the State’s
training plan pursuant to 45 CFR § 1356.60(b)(2). The State’s training plan must describe the
training activities and costs that will be charged to the Title IV-E program at the enhanced
75-percent rate.

New Mexico’s Approved Cost Allocation Plan

In 1997, DCA approved the State agency’s cost allocation plan in effect during our audit period. 1
The plan specified the following allocation methods for the administrative and training costs that
we reviewed:

       •    Protective Services Division district operation (Child Protective Services) costs were to
            be allocated using random moment sampling (timestudies) and further allocated using
            ratios of Title IV-E to non-Title-IV-E case counts. These ratios applied to both children
            in foster care (foster care ratios) and children in adoption (adoption ratios). In applying
            this methodology, the State agency used timestudies to allocate Child Protective Services
            costs to activities and funding sources. For activities identified as Title IV-E-eligible, the
            State agency usually allocated the costs further by applying either the foster care or
            adoption ratio. 2

       •    Central Adoptions Unit costs were to be allocated to the appropriate Federal program
            based on adoption case counts. In applying this methodology, the State agency used
            adoption ratios.

       •    Professional Development Bureau costs were to be allocated using the number of
            individuals receiving each type of training, including Title IV-E, or by direct
            identification of third-party costs. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Title IV-E administrative and training costs that the
State agency claimed were allowable, supported, and allocated in accordance with Federal
requirements.

1
    DCA approved amendments in 1999 and 2002.
2
    See exception on page 5 of this report.
3
    Third-party costs include contracted State university training costs.


                                                              2
Scope

We reviewed $35,109,575 ($18,787,701 Federal share) of the $52,632,892 in Title IV-E State
and local foster care administrative, adoption assistance administrative, and foster care training
costs that the State agency claimed for the period October 1, 2000, to September 30, 2002. 4 The
$35,109,575 consisted of $33,501,290 in Child Protective Services costs, $1,474,991 in Central
Adoptions Unit costs, and $133,294 in Professional Development Bureau costs.

We limited our review of internal controls to obtaining an understanding of the process used to
claim Title IV-E administrative and training costs and the procedures used to collect, summarize,
and allocate costs to the program.

We conducted our fieldwork at the State agency in Santa Fe, New Mexico.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal requirements, ACF policies, and the State agency’s approved
         Title IV-E State plan and cost allocation plan;

    •    interviewed State agency officials and their contracted consultants and ACF and DCA
         officials;

    •    reconciled the amounts claimed for Federal reimbursement to the State agency’s records;

    •    determined whether in-house training courses that corresponded to program charges were
         allowable under Title IV-E;

    •    reviewed the methods used to allocate and claim Child Protective Services, Central
         Adoptions Unit, and Professional Development Bureau costs;

    •    determined whether the State agency complied with its approved cost allocation plan;

    •    determined, on a test basis, whether foster care ratios were accurate and supported and
         whether the State agency correctly applied the ratios when allocating Child Protective
         Services costs to foster care administration and training for the audit period;

    •    determined whether adoption ratios were supported and whether the State agency
         correctly applied the ratios when allocating Child Protective Services and Central
         Adoptions Unit costs for the audit period;

4
 The $17,523,317 excluded from our review consisted of $8,654,811 for waiver development, citizens’ review
board, Title IV-E transportation, children’s court attorneys, the protective services director, and related indirect
costs; $7,815,318 for State and local training costs incurred under contracts with universities, which we audited
previously (report number A-06-06-00045, issued in February 2007); and $1,053,188 for Title IV-E Medicaid
eligibility determinations.


                                                            3
   •   determined whether the State agency used timestudy results to allocate Child Protective
       Services costs and reviewed the statistical validity and allowability of the timestudy
       methodology used;

   •   examined the accuracy of the timestudies used to allocate Child Protective Services costs
       for the quarter ended September 30, 2002, by determining whether timestudy training
       observations were supported by attendance and other records and whether the employees
       selected for timestudies were Child Protective Services employees, reviewing the
       procedures and documents used to conduct the studies, and observing a timestudy being
       conducted; and

   •   determined whether timestudy observation documentation supported the allocations to
       Title IV-E throughout the audit period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency claimed Title IV-E administrative and training costs that were not allowable,
supported, or allocated in accordance with Federal requirements. For the 2 years ended
September 30, 2002, the State agency claimed $1,651,871 ($1,138,499 Federal share) in
unallowable costs, including:

   •   $1,364,160 in training costs that were not claimed in accordance with the State’s
       approved cost allocation plan,

   •   $187,359 in administrative and training costs that were not eligible for Title IV-E
       reimbursement, and

   •   $100,352 in training costs that were claimed using inaccurate data.

We could not determine what portion of the remaining $33,457,704 ($17,649,202 Federal share)
in Title IV-E costs was allowable because the State agency did not use the timestudy
methodology included in its approved cost allocation plan to allocate costs, could not produce
sufficient documentation to support claimed costs, and did not sufficiently describe training
course content in the State plan for us to determine whether such content was closely related to
allowable Title IV-E activities. (See Appendix A.)

The State agency did not always follow Federal regulations or its approved cost allocation plan.
Inadequate internal controls over timestudy and other allocation data and over record retention
also contributed to the State agency’s improper and unsupported claims.




                                                4
UNALLOWABLE COSTS

The State agency claimed $1,651,871 in unallowable Title IV-E costs. The State agency did not
use foster care ratios to allocate costs to programs in accordance with its cost allocation plan
($1,364,160), claimed costs that were not eligible for reimbursement under Title IV-E
($187,359), and used inaccurate information to allocate training costs ($100,352).

Costs Not Claimed in Accordance With Approved Cost Allocation Plan

Federal regulations (45 CFR § 1356.60(c)) require the State to submit a cost allocation plan that
identifies the costs that will be allocated and claimed under the Title IV-E program. In
accordance with Federal regulations governing public assistance cost allocation plans (45 CFR
§ 95.507), the State must “[d]escribe the procedures used to identify, measure, and allocate all
costs to each of the programs operated by the State agency” in its cost allocation plan. Pursuant
to 45 CFR § 95.517, any costs claimed to the Title IV-E program must be claimed “only in
accordance with [the State’s] approved cost allocation plan.” Any costs claimed based on a
methodology not included in the State’s approved cost allocation plan are improper and will be
disallowed (45 CFR § 95.519).

The State agency claimed unallowable Child Protective Services training costs because it did not
use the methodology in its cost allocation plan. The State agency’s approved cost allocation plan
specified that Child Protective Services costs were to be allocated using timestudies and then
further allocated based on the ratio of Title IV-E to non-Title-IV-E case counts. Although the
State agency used timestudy data to allocate costs and identify costs associated with training, it
did not execute the additional step of further allocating the costs based on ratios; instead, the
State agency charged 100 percent of these costs to the Title IV-E program.

This error occurred because the State agency did not follow its approved cost allocation plan and
because State agency officials believed that they were not required to further allocate costs by
applying foster care ratios to training costs. By applying the foster care ratios, we determined
that the State agency overcharged Title IV-E $1,364,160 for training costs that were not allocable
to the program.

Costs Not Reimbursable

Investigation Costs Not Reimbursable

For administrative costs to qualify for Title IV-E reimbursement, they must be listed as, or
closely relate to, one of the activities set forth in 45 CFR § 1356.60(c)(1) and (2). Federal
regulations do not list investigation costs as an allowable administrative activity. The
Departmental Appeals Board (DAB) considered this issue and made clear in Missouri
Department of Social Services, DAB No. 1899 (2003), that Title IV-E funding for administrative
costs is limited to the activities specifically listed in regulation (45 CFR § 1356.60(c)(2)) or to
closely related activities. Moreover, ACF’s “Child Welfare Policy Manual,” section 8.1B1,
states that investigation costs are not considered Title IV-E-eligible administrative costs.




                                                 5
The State agency claimed $130,533 in unallowable Child Protective Services administrative
costs for caseworker investigations. The State agency had allocated these costs to Title IV-E
based on a proportionate share of timestudy results indicating that caseworkers had investigated
the abuse and neglect of children in foster care. This error occurred because the State agency
believed that the costs of such investigations were reimbursable under Title IV-E. Because
investigative costs are not reimbursable as administrative costs under Title IV-E, the entire
$130,533 was not allocable to Title IV-E.

Training Costs Not Reimbursable at Enhanced Rate

Federal regulations (45 CFR § 1356.60(b)) state that the enhanced 75-percent Federal matching
rate applies only to training activities and associated costs specified in 45 CFR §§ 235.63–
235.66(a); otherwise, 45 CFR § 1356.60(c) provides for reimbursement of administrative costs at
the 50-percent rate. Pursuant to 45 CFR § 235.64(c), Federal reimbursement is available for the
costs of training and education outside the agency, including salary and fringe benefit costs for
employees in “full-time, long-term training programs (with no assigned agency duties)” or in
“full-time, short-term training programs.”

For part-time training or full-time, short-term training sessions lasting less than 4 consecutive
weeks, the regulation provides for reimbursement of travel, per diem, tuition, books, and
educational supplies. Salary and fringe benefit costs are reimbursable only for employees in full-
time training programs. Federal regulations (45 CFR § 235.61) define full-time training as
“training that requires employees to be relieved of all responsibility for performance of current
work to participate in a training program.” Part-time training is defined as “training that allows
employees to continue full-time in their jobs or requires only partial reduction of work activities
to participate in a training program outside of the State or local agency.”

For the quarter ended September 30, 2002, the State agency improperly claimed a portion of its
Title IV-E Child Protective Services training costs at the enhanced 75-percent rate. For 32 of
120 timestudy observations, employees indicated that they were attending university training.
For these individuals, the State agency allocated all the Child Protective Services department
costs, which included salaries, fringe benefits, travel, and other department administrative costs,
for training of employees who were not in full-time training programs and who maintained work
duties at the State agency. In long-term education training requests, these employees stated that
they would continue their work duties and maintain all or a portion of their caseloads while
attending training. The State agency approved these requests, including requests for paid leave
of less than 40 hours per week, because staff worked part of the 40 hours. Thus, the State agency
improperly claimed reimbursement at the 75-percent rate for the salaries and fringe benefit costs
of staff not attending full-time training programs and did not limit its claims to only those types
of costs that were allowable for staff participating in part-time training programs.

These errors occurred because the State agency did not follow Federal regulations in allocating
costs and because the timestudy observation forms were not designed to distinguish between
part-time and full-time training as defined by 45 CFR § 235.61. Also, the approved cost
allocation plan was silent on how the costs of part-time and full-time training would be
differentiated within the random moment sampling and how the State agency would limit its



                                                6
allocation of Child Protective Services costs to claim at the 75-percent rate only the types of
costs allowed to be claimed at that rate based on the type of training received. The State agency
claimed $56,826 in unallowable Child Protective Services training costs. This amount represents
the enhanced portion (25 percent) of the training costs claimed for 32 timestudy respondents.

Inaccurate Data Used To Claim Costs

Inaccurate Timestudy Observations

OMB Circular A-87, Attachment B, section 11.h, states that when employees work on multiple
activities or cost objectives, a distribution of their salaries or wages must be supported by
monthly personnel activity reports or equivalent documentation unless a statistical sampling
system or other substitute system is approved. Such substitute systems may include timestudies.
Further, 45 CFR § 95.507(b)(8) requires that the State certify that the methodologies and
standards used in the State’s cost allocation plan comply with OMB Circular A-87 and
applicable Federal regulations and instructions and that there are adequate accounting and
statistical systems in place to support claimed costs.

The State agency’s cost allocation plan identified and described the methodology it would use to
conduct timestudies for allocating training costs. The plan specified that “nonstrike”
observations from timestudies should not be counted in allocating costs. A nonstrike occurs
when a selected employee cannot be contacted within 15 minutes of the selected moment, the
employee no longer works at the office, or the employee is not on duty at the time of the
observation.

Based on our review of documentation for the quarter ended September 30, 2002, the State
agency did not follow the timestudy methodology included in its cost allocation plan when it
allocated and claimed a portion of its Child Protective Services training costs to Title IV-E at the
enhanced 75-percent rate. Of the 120 timestudy observations, 38 indicated that the caseworkers
were attending Title IV-E-eligible training. These timestudy observations were inaccurate, and
costs were not eligible for the 75-percent reimbursement rate for one or more of the following
reasons: The caseworkers or their supervisors acknowledged that the caseworkers had not
attended training, training records showed that caseworkers had not attended training, or there
was no record of attendance at training.

These errors occurred because the State agency did not adhere to the timestudy methodology
approved in its cost allocation plan when it accepted responses from personnel other than the
selected caseworkers themselves and from caseworkers who did not respond within 15 minutes
of the sampled moment. Furthermore, the State agency did not have adequate internal controls
to ensure that accurate timestudy data were used in calculating costs to be allocated to
Title IV-E.

As a result, the State agency claimed $82,261 in unallowable Child Protective Services training
costs. This amount represents the enhanced portion (25 percent) of the training costs claimed for
the 38 timestudy respondents, a portion of the costs claimed for 2 respondents who were on
annual leave or not employed, and all costs claimed for 2 respondents who were performing non-
Title IV-E-reimbursable activities during the moment sampled.


                                                 7
Inaccurate Attendance Counts

Federal regulations (45 CFR § 74.21(b)) require States to follow “written procedures for
determining the reasonableness, allocability and allowability of costs” as set forth in OMB
Circular A-87 and Federal grant rules and to maintain “accounting records, including cost
accounting records, that are supported by source documentation.”

The State agency allocated $133,294 of its Professional Development Bureau training costs to
Title IV-E at the enhanced 75-percent rate based on an inaccurate accounting of caseworkers
attending Title IV-E-eligible training. The State’s cost allocation plan requires that Professional
Development Bureau training costs be determined based on the number of individuals attending
each type of training. The State agency followed the allocation method included in its approved
cost allocation plan; however, when calculating the costs to allocate and claim for enhanced
reimbursement, the State agency included caseworkers who had not attended Title IV-E training.

This error occurred because the State agency did not have adequate accounting systems and
procedures for verifying the accuracy of its attendance counts. We recalculated the costs based
on the actual number of caseworkers who attended training and determined that the State agency
had claimed $18,091 in Professional Development Bureau training costs that were not allocable
to Title IV-E.

POTENTIALLY UNALLOWABLE COSTS

We could not determine what portion of the remaining $33,457,704 ($17,649,202 Federal share)
in claimed Title IV-E administrative and training costs was allowable because the State agency
did not:

   •   use the timestudy methodology in its approved cost allocation plan to allocate costs,

   •   maintain sufficient documentation and/or adequate accounting systems to support
       claimed costs, or

   •   sufficiently describe training course content in the State plan for us to determine whether
       such content was closely related to allowable Title IV-E activities.

Invalid Timestudies Used To Allocate Costs

OMB Circular A-87, Attachment B, section 11.h, states that for employees who work on
multiple grant activities, the State agency must distribute salaries and/or wages accordingly and
must support the distribution by monthly personnel activity reports or equivalent documentation.
However, a statistical sampling system, such as random moment sampling or other quantifiable
measures of employee effort, may be used subject to the approval of the cognizant Federal
agency. OMB Circular A-87, Attachment B, section 11.h, further states that substitute sampling
systems must meet acceptable statistical standards, including the following:




                                                 8
     •   The sampling universe must include all of the employees whose salaries and wages are
         to be allocated based on sample results.

     •   The entire period involved must be covered by the sample.

     •   The results must be statistically valid and applied to the period being sampled.

Pursuant to Federal regulations (45 CFR § 95.507), the State agency must include in its cost
allocation plan the timestudy methodologies that it will use to identify, measure, and allocate
costs to all programs that it administers or supervises. The State agency’s approved cost
allocation plan specifies that for Child Protective Services, the random moments sampled would
occur during the standard workday, defined by the State agency as 7:00 a.m. to 6:00 p.m.

The State agency allocated Child Protective Services administrative and training costs to Title
IV-E using timestudies that did not follow the sampling methodology in its approved cost
allocation plan. Contrary to the plan’s requirements, the State agency sampled minutes of
caseworkers and their activities for only part of the standard workday. Because not all times
worked were sampled, each minute worked did not have an equal chance of selection. This bias
may have skewed the timestudies and understated or overstated the time spent on Title IV-E
activities.

This error occurred because the State agency did not follow the sampling methodology in its
approved cost allocation plan. As a result, we have concerns regarding the validity and equitable
distribution of all the amounts that the State agency claimed for Child Protective Services
administrative and training costs.

Insufficient or Lack of Documentation To Support Claims

Financial records, supporting documents, statistical records, and all other records pertinent to an
award must be retained for 3 years from the date of submission of the applicable quarterly
financial report or until all litigation, claims, or audit findings involving the records have been
resolved and final action taken (45 CFR § 74.53).

Unsupported Timestudies

The State agency allocated some Child Protective Services administrative and training costs to
Title IV-E based on unsupported timestudies. On January 31, 2001, the State agency submitted
its quarterly financial report for the quarter ending December 31, 2000, which was the first
quarter included in our audit. The State agency was required to maintain supporting records for
the quarterly financial report for 3 years from the date of submission, or, in this case, January 31,
2004. However, the State agency either destroyed or could not locate timestudy documentation
for seven of the eight quarters in our audit period, and the documentation for the remaining
quarter was insufficient to support the agency’s allocations.

Although the State agency had implemented record retention procedures, these errors occurred,
in part, because the State agency did not have specific procedures for retaining timestudy records



                                                  9
in accordance with Federal regulations. Therefore, we were unable to determine what portion of
the costs was allocated and claimed in accordance with Federal requirements.

Unsupported Adoption Ratios

The State agency allocated some Child Protective Services and Central Adoptions Unit
administrative costs to Title IV-E adoption administration based on unsupported adoption ratios.
The State agency calculated adoption ratios by reviewing records of adopted children in the State
agency’s computer system. However, the State agency did not record and maintain copies of the
information used from the records in the system. Because the information changes over time, the
State agency could not identify the records supporting the adoption ratios used to allocate costs
to Title IV-E.

This error occurred because the State agency did not have procedures to save computer system
information to support the case counts used to calculate adoption ratios for the audit period.
Therefore, we were unable to determine what portion of the costs was allocated and claimed in
accordance with Federal requirements.

Costs Claimed for Training Courses Not Related to Allowable Title IV-E Activities

Federal regulations (45 CFR § 1356.60(b)) state that the enhanced 75-percent Federal matching
rate applies only to training activities and associated costs specified in 45 CFR §§
235.63–235.66(a); otherwise, 45 CFR § 1356.60(c) provides for reimbursement of administrative
costs at the 50-percent rate. However, to receive Title IV-E reimbursement for either training or
administrative costs, the costs must be listed in 45 CFR § 13560(c)(1) and (2) or be closely
related. The DAB ruled in Illinois Department of Children and Family Services, DAB No. 1530
(1995), that there is “. . . no basis for permitting states to charge to Title IV-E the cost of training
related to activities which are not themselves allowable Title IV-E activities” as described in 45
CFR § 1356.60(c)(1) and (2).

The State agency allocated some Professional Development Bureau training costs based on
employee attendance at core training courses containing subject matter that may not qualify as
allowable Title IV-E activities as set forth in 45 CFR § 1356.60(c)(1) and (2). For example,
some training documents indicated that courses covered material on investigations and family
preservation. However, the course information was not sufficient for us to determine the
prevalence of unallowable training subjects.

This error occurred because the State agency did not adequately identify in its training plan for
Title IV-B the courses or course content that it classified as Title IV-E training, as required by
45 CFR § 1356.60(b)(2). Therefore, we were unable to determine whether training costs were
allocated and claimed in accordance with Federal requirements.




                                                  10
RECOMMENDATIONS

We recommend that the State agency:

    •   refund the $1,138,499 Federal share of unallowable costs;

    •   work with DCA and ACF to determine the allowable portion of the $17,649,202 Federal
        share of potentially unallowable costs and refund any unallowable costs;

    •   work with DCA and ACF to revise its cost allocation plan to describe Title IV-E training
        and a method for allocating the costs of part-time and full-time training programs in
        accordance with Federal requirements; and

    •   implement procedures to ensure that it follows the allocation methods in the approved
        cost allocation plan, documents and verifies the allocation methods used, claims only
        reimbursable costs, and maintains records and data used to allocate costs in accordance
        with Federal regulations.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not specifically address our
recommendations. The State agency agreed with our findings on costs that were not claimed in
accordance with the approved cost allocation plan and on training costs that were not
reimbursable at the enhanced rate. The State agency disagreed with, or did not express an
opinion on, the remaining findings. The State agency did not provide any additional information
that would lead us to change our findings or recommendations. The State agency’s comments,
which we summarize below, appear in their entirety as Appendix B.

Investigation Costs Not Reimbursable

State Agency Comments

The State agency did not concur with this finding because the timestudy funding matrix in its
cost allocation plan had been approved by DCA and ACF. However, the State agency said that it
began allocating the costs associated with investigations of abuse and neglect of children in
foster care to the Temporary Assistance for Needy Families Maintenance of Effort funds and the
State General Fund after we brought this issue to its attention.

Office of Inspector General Response

The timestudy funding matrix, which was an appendix to the State agency’s approved cost
allocation plan, includes the term “investigation” but does not describe the costs to be allocated.
We relied on DCA’s March 15, 1999, approval letter, which prohibits claiming costs that are not
allowed under program regulations. As noted on page 5, Federal regulations (45 CFR
§ 1356.60(c)(1) and (2)) and ACF policy state that investigations are not allowable Title IV-E



                                                11
costs. Thus, we continue to recommend that the State agency refund the Federal share of the
Child Protective Services administrative costs for caseworker investigations.

Inaccurate Timestudy Observations

State Agency Comments

The State agency did not concur with this finding because the sampling methodology accounted
for potential errors during sampling, allowing for a plus or minus 5-percent confidence level.
The State agency said that because we selected only timestudy responses for training-related
activities, assessing the overall accuracy of the random moment sampling was impossible. In
addition, the State agency said that it had implemented additional internal controls and
procedures for administering the timestudy.

Office of Inspector General Response

The statistical formula used to compute a confidence interval accounts for sampling error, which
is the difference between the estimate from the sample and the true population value.
Nonsampling errors include mistakes made in the process of selecting the sample, such as errors
in data collection, clerical errors, and computational or computer programming errors; mistakes
made when reviewing the sampled data; and missing data. The errors in this finding were
nonsampling errors and were not accounted for in the computation of the timestudy confidence
interval. We did not address errors in the overall timestudy methodology or the overall accuracy
of the timestudy system. We addressed only timestudy inaccuracies in training observations for
the quarter ended September 30, 2002.

Inaccurate Attendance Counts

State Agency Comments

The State agency said that our method for calculating the disallowance for this finding was
unclear and requested that we provide the documentation used in our calculation. The State
agency also said that the finding did not make clear whether the caseworkers attended non-Title-
IV-E training but were counted as attending Title IV-E training or whether the caseworkers did
not participate in any training. The State agency said that if the caseworkers did not participate
in training but were included on rosters, the rosters should be adjusted and the impact of the
adjustment on Title IV-E training costs would be $0.

Office of Inspector General Response

We previously provided the State agency with the requested documentation. The State agency
incorrectly added the number of caseworkers attending Title IV-E-eligible training when
calculating Professional Development Bureau training costs. The State agency overstated the
number of training attendees on attendance lists, resulting in overstated costs. We recalculated
the costs that the State agency should have claimed based on the actual number of caseworkers
who attended training and determined that the effect was not $0. Rather, the adjustments



                                                12
lowered the Title IV-E training cost allocations to less than the amount that the State agency
claimed.

Insufficient or Lack of Documentation To Support Claims

State Agency Comments

The State agency concurred that timestudy data forms for our audit period were either misplaced
or destroyed. However, the State agency said that it had made sufficient supporting data
available to us electronically as an alternative.

Office of Inspector General Response

Because the State agency could not provide us with the timestudy observation forms that we
needed, it provided us with a sampling list containing caseworkers’ names, Social Security
numbers, and telephone numbers, as well as dates and times of selected random moments. The
State agency also provided us with a separate response count form that listed the responses by
service type and totals by activity code but did not include the names of the responding
caseworkers. We could not use these documents as substitutes for the observation forms because
we could not connect the responses on the response count form to the individuals on the
sampling list. Thus, we continue to recommend that the State agency work with DCA and ACF
to determine the allowable portion of the potentially unallowable costs.




                                                13
APPENDIXES
                                                            APPENDIX A


          COSTS REVIEWED AND AUDIT DETERMINATIONS MADE
           FOR THE 2-YEAR PERIOD ENDED SEPTEMBER 30, 2002


                             Reviewed      Questioned    Set Aside

Child Protective Services    $33,501,290   $1,633,780   $31,867,510

Central Adoptions Unit         1,474,991           0      1,474,991

Professional Development        133,294       18,091       115,203
Bureau

  Total                      $35,109,575   $1,651,871   $33,457,704
APPENDIX B
  Page 1 of 6
APPENDIX B
  Page 2 of 6
APPENDIX B
  Page 3 of 6
APPENDIX B
  Page 4 of 6
APPENDIX B
  Page 5 of 6
APPENDIX B
  Page 6 of 6
